<html>
<title> - WESTERN HEMISPHERE BUDGET REVIEW 2013: WHAT ARE U.S. PRIORITIES?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






    WESTERN HEMISPHERE BUDGET REVIEW 2013: WHAT ARE U.S. PRIORITIES?

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 25, 2012

                               __________

                           Serial No. 112-152

                               __________

        Printed for the use of the Committee on Foreign Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                      or http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-000PDF                 WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         BRAD SHERMAN, California
EDWARD R. ROYCE, California          ELIOT L. ENGEL, New York
STEVE CHABOT, Ohio                   GREGORY W. MEEKS, New York
RON PAUL, Texas                      RUSS CARNAHAN, Missouri
MIKE PENCE, Indiana                  ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
CONNIE MACK, Florida                 THEODORE E. DEUTCH, Florida
JEFF FORTENBERRY, Nebraska           DENNIS CARDOZA, California
MICHAEL T. McCAUL, Texas             BEN CHANDLER, Kentucky
TED POE, Texas                       BRIAN HIGGINS, New York
GUS M. BILIRAKIS, Florida            ALLYSON SCHWARTZ, Pennsylvania
JEAN SCHMIDT, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
BILL JOHNSON, Ohio                   FREDERICA WILSON, Florida
DAVID RIVERA, Florida                KAREN BASS, California
MIKE KELLY, Pennsylvania             WILLIAM KEATING, Massachusetts
TIM GRIFFIN, Arkansas                DAVID CICILLINE, Rhode Island
TOM MARINO, Pennsylvania
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                     CONNIE MACK, Florida, Chairman
MICHAEL T. McCAUL, Texas             ELIOT L. ENGEL, New York
JEAN SCHMIDT, Ohio                   ALBIO SIRES, New Jersey
DAVID RIVERA, Florida                ENI F.H. FALEOMAVAEGA, American 
CHRISTOPHER H. SMITH, New Jersey         Samoa
ELTON GALLEGLY, California           DONALD M. PAYNE, New Jersey












                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Roberta S. Jacobson, Assistant Secretary of State, 
  Bureau of Western Hemisphere Affairs, U.S. Department of State.     5

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Roberta S. Jacobson: Prepared statement............     7

                                APPENDIX

Hearing notice...................................................    30
Hearing minutes..................................................    31
The Honorable Connie Mack, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on the Western 
  Hemisphere:
  Prepared statement.............................................    33
  Material submitted for the record..............................    34

 
    WESTERN HEMISPHERE BUDGET REVIEW 2013: WHAT ARE U.S. PRIORITIES?

                              ----------                              


                       WEDNESDAY, APRIL 25, 2012

                  House of Representatives,
            Subcommittee on the Western Hemisphere,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Connie Mack 
(chairman of the subcommittee) presiding.
    Mr. Mack. The subcommittee will come to order. I first want 
to thank everyone, especially our witness, for joining us for 
our hearing today.
    After recognizing myself and the ranking member, Mr. Engel, 
for 5 minutes each for opening statements, I will recognize the 
members of the subcommittee for 2 minutes each, for their 
opening statements. We will then proceed directly to hear 
testimony from our distinguished witness.
    The full text of the written testimony will be inserted 
into the record. Without objections, members may have 5 days to 
submit statements and questions for the record. After we hear 
from our witness, individual members will be recognized for 5 
minutes each for questions to our witness. And I now recognize 
myself for an opening statement.
    It is a new year, with a new budget hearing, and things 
look worse for the United States today than they did last year. 
We spent approximately $1.8 billion on programs in the Western 
Hemisphere last year, and we find that the region has less 
economic freedom, an increased homicide rate and reduced press 
freedom. If it was a private company generating this data 
instead of the U.S. Government, it would be made clear that the 
product is failing to provide desired results and the contract 
would not be extended.
    Unfortunately, these figures represent the outcome of the 
U.S. Government's programs and this backsliding is compounded 
by an increased lack of respect for the United States. The 
headlines emanating from the Summit of the Americas widely 
reported that the United States is isolated within the region. 
You have been in a senior position on issues relating to the 
hemisphere for over 10 years. During this time we have not held 
the Organization of American States accountable for their 
inability or lack of desire to act on behalf of democracy in 
the hemisphere. Now we see the discussion of redefining 
democracy gaining steam in the region. While it may be a 
complex system of governing and is difficult to attain and 
maintain, democracy has but one definition: Government by the 
people.
    It is clear that Cuba does not have government by the 
people. Other nations in the region have mutilated government 
by the people by utilizing executive power to alter 
constitutions and by daily assaults on free speech. Democratic 
principles act as a standard for protecting freedom. If these 
principles slip within our region, the impact to security and 
the economy will be lasting.
    Over the past 10 years, U.S. assistance supporting 
democratic efforts has been cut while the OAS has received 
yearly increases. Nicaragua and Ecuador have worked counter to 
freedom and received a boost in U.S. funding, and new global 
climate change programs have maintained a healthy stipend. 
Meanwhile, our allies were dragged through a negative campaign 
on the free trade agreements, and frustrated on the Keystone XL 
pipeline. Are we to understand that $78 million spent on 
climate change programs outside of our country took priority 
over enhancing business partnerships and the principles of 
freedom for the citizens of our region?
    Backsliding in the hemisphere is extensive, with attacks on 
the press and business from Argentina to Ecuador, Ortega's 
stealing the election in Nicaragua, Chavez's involvement in all 
of the above while ceding Venezuela to drug traffickers and 
terrorists. Billions of dollars are going to fight the drug 
trade with countries who take a public stand against U.S. 
policies, all while the region bands together to demand the 
world's longest dictatorship in Cuba a seat at the democratic 
gathering of nations.
    Assistant Secretary, I look forward to hearing how you will 
improve the markers on this declining state in which we find 
ourselves. As I have said, and I am sure you agree, the 
strengthening of our economy and the durability of our national 
security starts right here with the powerful economies in our 
region and at our borders. Unfortunately, our policies have 
come down to promoting the lowest common denominator in an 
attempt to maintain friends. In the end we have lost our 
friends and our values.
    I hope that you will explain how you will use your new 
position, and a requested $1.5 billion to set the United States 
on a more prosperous path forward, standing with our allies and 
putting our principles before our adversaries.
    With that I now recognize the ranking member, Mr. Engel, 
for 5 minutes.
    Mr. Engel. Thank you very much, Mr. Chairman. Thank you for 
holding this hearing today. With the Summit of the Americas 
having taken place in Cartagena, Colombia, just 1\1/2\ weeks 
ago, this hearing is a timely review of U.S. policies and 
priorities in Latin America and the Caribbean.
    Before discussing our region, I would like to extend my 
warmest congratulations to Assistant Secretary Roberta Jacobson 
whose nomination was recently approved by the Senate. Roberta, 
your work is widely respected and your abilities are highly 
regarded by me and by many, many others. I could not be happier 
for you, for the Department, for our country, and I wish you 
the best of luck. And I am anxious to hear what you will be 
testifying about today.
    I must say, however, that your nomination was yet another 
example of how the nominations process in the Senate is 
failing. When individual senators can hold up qualified 
nonpolitical nominees like yourself due to one agenda or 
another, it just shows that the system is broken and the time 
to fix it is now. Mr. Chairman, so Mr. Mack, if you are in the 
other body I am going to count on you to fix the system.
    Mr. Chairman, you and I were with President Obama as well 
as Secretary Jacobson at the Summit of the Americas. We had the 
opportunity to speak with leaders of the region about the 
conditions in their countries, how they see the region, their 
ties with the United States. We learned a great deal about how 
our friends to the south view key issues including how to work 
together to halt the illicit drug trade and associated 
violence, and expand trade and prosperity to all people in our 
hemisphere.
    Personally, I would like to express my deepest thanks to 
President Obama for including me in his delegation at the 
Summit. It was eye opening to watch the proceedings, not from 
the angle of the legislative branch, but through the lens of 
the executive. And having been there, I must say that President 
Obama, Secretary Clinton and the rest of the U.S. team 
performed very well and represented our country with 
distinction. I thank them for our efforts.
    Many good things happened at the Summit of the Americas, 
many good things that the United States is doing. You wouldn't 
necessarily know that from the media coverage who was focusing 
on the scandal, but believe me, there were many, many important 
things at that Summit and I was proud to be a part of it.
    Secretary Jacobson, I know the subcommittee is looking 
forward to hearing from you on some of the key issues we are 
monitoring in our region. I think we need to continue to assist 
Haiti so it can rebuild from the earthquake. We will listen 
carefully to your thoughts on how the drug crime is affecting 
our friends in Mexico, Central America and the Caribbean, and 
how our counter narcotics response is proceeding. We look 
forward to your comments on the more challenging countries in 
the hemisphere including Venezuela, Ecuador and others, and of 
course, Cuba.
    As Mr. Mack mentioned, many of the countries are demanding 
that the next time there is a Summit that Cuba be a part of it. 
I question and say, well, what is Cuba's responsibility? We 
wanted to invite them, but what are they willing to do in order 
to get invited? And so far I don't think we have seen very 
much. And with the U.S.-Colombia FTA entering force next month, 
we are hoping you will discuss how this will expand prosperity 
in the region and create jobs in the U.S., but also your 
thoughts on the status of implementation of the Labor Action 
Plan.
    So Mr. Chairman, I thank you again for holding this 
hearing, and I look forward to the testimony.
    Mr. Mack. Thank you, Mr. Engel. And I would now like to 
recognize Mr. Sires for 2 minutes for an opening statement.
    Mr. Sires. Thank you, Chairman Mack. Congratulations on 
your confirmation. Congratulations on your appointment. You 
have an easy job. It is only about, I don't know how many 
countries we have but--I would just share a couple of things of 
my concern. And first I want to thank Chairman Mack for taking 
the trip down to the Summit. It was very informative. And it 
was nice to see the Secretary there.
    But in meeting with the different Presidents and the 
different dignitaries that we met with, I took one thing away, 
which is very important and obviously is also our concern, is 
the drug problem. And one of the things that I took with me is 
the concern that we are not doing a regional effort to combat 
the cartels. I think that we put a lot of money in one country. 
I don't think we put enough on some of the other countries. And 
from what I gather is what happens, when we fight in Mexico or 
we put some money in some of the other countries, the other 
countries become roots. And it is that old expression of the 
balloon. You squeeze it here and something else pop out 
someplace else.
    So I have been saying this since I got to Congress, that 
our effort has to be a regional effort. This is not now that we 
are in the minority, but when we were in the majority we always 
talked about a regional effort. And it was just confirmed in 
talking with some of the Presidents at the Summit. They are 
concerned that they are not getting enough assistance to help 
us fight the drug problem.
    The other thing that concerns me is that it seems that we 
are trending away from the Western Hemisphere and looking at 
South-Central Asia and the Middle East, and some of the money 
seems to be going there. I think that there is no better 
opportunity for us than in the Western Hemisphere. And to take 
money away at this time, I don't think is really the best 
policy that this country can have.
    And with that I will end, and I will let the Assistant 
Secretary make her comments, then I have some questions for the 
Assistant Secretary later. Thank you, Chairman.
    Mr. Mack. Thank you. And now I would like to recognize Mr. 
Rivera from Miami for 2 minutes for an opening statement.
    Mr. Rivera. Thank you very much, Mr. Chairman. Madam 
Secretary, thank you for being here. Very nice to see you again 
after spending some time together in Cartagena.
    In terms of my opening statement, I just want to give you 
some of my reflections based on our trip to participate and 
observe the Summit of the Americas in Cartagena, Colombia. And 
one of the biggest concerns that I took away from that Summit 
was this notion that I believe President Santos had introduced 
maybe weeks or months earlier. When the issue of Cuba's 
integration into the Summit process came up, President Santos 
talked about perhaps the need to redefine our definition of 
democracy. Because as we know, one of the premises of the 
Summit process is of course participation of democratic 
nations. And I think it is a very dangerous slippery slope that 
we get into if Presidents start talking about redefining 
democracy, because I think there are a lot of tyrants around 
the world and certainly in Latin America, or prospective 
tyrants that could seek refuge in the notion that we somehow 
need to redefine democracy just to make an accommodation or to 
apologize for a communist, totalitarian dictatorship in Cuba.
    So I want to explore that a little more in my question and 
answer session, but I certainly want you to know that I hope 
this administration will summarily reject the notion that 
democracy needs to be redefined somehow in order so that we can 
accommodate tyrants like the Castro brothers, because all that 
will do is encourage further anti-democratic behavior in the 
hemisphere.
    Thank you, Mr. Chairman.
    Mr. Mack. Thank you, Mr. Rivera. I would now like to 
recognize our witness. And first of all, again, congratulations 
on your appointment and nomination.
    The honorable Roberta Jacobson currently serves as the 
Assistant Secretary for the Western Hemisphere Affairs Bureau. 
She has had a long and distinguished career, and we mean that 
in a good way, with the State Department, and on issues 
relating to the Western Hemisphere. You are certainly no 
stranger to the committee, to the Hemisphere, and we value your 
input and direction and look forward to a spirited conversation 
about how we improve our relations in Latin America to do what, 
I think, most people desire and that is see the cause of 
freedom and democracy extended to all.
    So with that I recognize the Assistant Secretary for 5 
minutes for her opening statement.

   STATEMENT OF THE HONORABLE ROBERTA S. JACOBSON, ASSISTANT 
SECRETARY OF STATE, BUREAU OF WESTERN HEMISPHERE AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ms. Jacobson. Thank you, Mr. Chairman, very much. Chairman 
Mack, Ranking Member Engel, members of the committee, it is a 
privilege to be here today, and it is particularly nice to be 
back in this chamber after an absence of several months. And I 
really appreciate the opportunity to speak with you, and the 
support and engagement that this subcommittee has given to our 
efforts in the Western Hemisphere. I also thank all of you for 
being in Cartagena, Colombia, and I look forward to talking 
about the Summit of the Americas with you.
    We are fortunate that in our hemisphere we are 
overwhelmingly presented with opportunities to advance U.S. 
objectives and promote democracy and greater prosperity for the 
United States and all the countries of the region. As you 
noted, the President's and the Secretary's engagements in 
Colombia demonstrated the power of this vision to expand social 
and economic opportunity, but the Summit also provided an 
opportunity to continue our work standing up for shared 
democratic values in the Americas. We are especially engaged in 
responding to threats against democratic governance and freedom 
of expression, threats to citizen security and threats from 
external actors in the Western Hemisphere that directly impact 
the security of the United States.
    The Summit of the Americas showcased the region's rapid 
change. Although obscured by reporting on other issues, the 
Summit highlighted the many practical ways that governments and 
citizens in the Americas are coming together to solve problems 
and build a more successful and connected future. President 
Obama reinforced the spirit of partnership that has been at the 
core of his administration's policy in the region. The 
Colombian Government's program for this year's Summit, 
including the CEO forum and civil society forums, was a 
successful example of what Secretary Clinton calls ``the three-
legged stool of a democratic society,'' accountable 
governments, private sectors creating opportunities and engaged 
civil societies.
    The initiative that we launched at the Summit included the 
establishment of the Small Business Network of the Americas to 
provide technical assistance to small and medium sized 
enterprises and encourage American SMEs to take advantage of 
the market in this region, announcement of the Women's 
Entrepreneurship network, advancement of the President's 
100,000 Strong in the Americas effort to increase student 
exchanges, expansion of regional broadband capacity, and 
support for innovations efforts in development. I am especially 
enthusiastic about the United States' role in the creation of 
Colombia's Connect 2022 initiative to expand electrical 
connectivity throughout the Americas.
    Through equal partnership and the power of proximity, the 
United States is working with capable regional partners to 
address key challenges facing the people of the Americas. 
Increasingly, these partnerships do not require U.S. 
assistance, as more and more countries become global players 
and donors in their own right. At the same time, transnational 
crime in the hemisphere has caused violence that makes day-to-
day life for some of the region's people intolerable. Sustained 
U.S. engagement and assistance on this front is required to 
counter these threats, to improve the lives of people 
throughout the region and protect our security interests.
    The administration's Fiscal Year 2013 request of $1.65 
billion for the Western Hemisphere prioritizes our security 
initiatives in Mexico, in Colombia, in Central America and in 
the Caribbean. Our request for these initiatives reflect an 
emphasis on enhancing capacity and strengthening institutions 
over the long term. Our assistance draws on the capacity of 
partners in the hemisphere such as Colombia and Mexico, and 
other international donors such as Canada, the EU, Spain, the 
Inter-American Development Bank and others. Our Fiscal Year 
2013 request also prioritizes assistance for Haiti to support 
the country's ongoing development efforts focused on sanitation 
and health services, expansion of energy infrastructure, 
economic growth to increase job creation, and improving the 
government's ability to deliver needed services. In Mexico we 
continue our shift away from heavy equipment and toward 
institutional capacity building. We are continuing to work with 
Colombia and its whole-of-government effort to expand state 
presence in former conflict zones and protect human rights and 
economic development.
    During the Summit of the Americas, the President also 
announced our intention to seek an increase to at least $130 
million for our assistance under the Central American Citizens 
Security Partnership in response to continued high levels of 
violence in that region.
    Finally, let me mention that democracy assistance is also a 
critical component in achieving our goals, and our commitment 
to democracy and human rights throughout the hemisphere is 
unwavering. We will continue to support human rights activists 
and fundamental freedoms around the world, including in 
challenging environments like Nicaragua, Ecuador, Venezuela and 
Cuba.
    Thank you again, Mr. Chairman, and I look forward to 
continuing to work with you to advance U.S. interests in the 
hemisphere.
    [The prepared statement of Ms. Jacobson follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Mack. Thank you very much. Thank you for your opening 
statement, and I now recognize myself 5 minutes for questions.
    I want to explore a little bit more with you the idea that 
we seem to be cutting funds for supporting democratic efforts, 
but we see an increase in funds that goes to the OAS. Can you 
tell me why is it that it appears that--I will just say it this 
way. It appears that we are making it more difficult for our 
allies, and that the enemies of the United States tend to be 
getting a pass. We see it through the FTAs and how long it took 
in this drawn out campaign of the FTAs. We see it now with the 
Keystone XL pipeline. In foreign policy, if we want to say it 
matters to be a friend of the United States, but then when we 
have the ability for a Keystone pipeline or for the FTAs we 
drag our allies through the mud.
    Can you kind of explain why it is that funding for 
democracies has gone down while increased funding to the OAS, 
when the OAS has, I believe, failed in its mission? And then 
why do we tend to give a hard time to our allies instead of 
supporting them with free trade agreements and Keystone XL 
pipeline?
    Ms. Jacobson. Thank you, Mr. Chairman. I think I want to 
start off by saying that we certainly are delighted that the 
free trade agreements are entering into force, that we were 
able to move those ahead, and that they are strong free trade 
agreements that will serve both countries, in each case the 
bilateral agreements, very well. We now have free trade 
agreements that run from Canada all the way down through South 
America in many countries of the hemisphere, and that remains a 
very important part of our policy.
    Mr. Mack. But you will admit that it was a very long time, 
and you have to admit that the length of time it took to get 
them done, in relation to how long it takes free trade 
agreements to get done in other places with Latin America 
countries and other countries, has made it difficult for us in 
the hemisphere.
    Ms. Jacobson. It did take a long time, there is no doubt. 
But in the end, what we achieved in terms of agreements with 
all of these countries, I think, were stronger agreements. The 
Labor Action Plan and the implementation of that action plan is 
making a difference on the ground, and we are delighted that 
this is going to open up such new opportunities for American 
jobs and for the economies in the region.
    But when it comes to supporting democracies and supporting 
our allies, let me start with, for example, the Citizen 
Security initiatives, which while Mexico and Colombia are going 
down, because those are countries that are capable of taking 
over those programs certainly as many years after we began Plan 
Colombia as we now are, but in places like Central America the 
funding is going up because we know that our allies in Central 
America who are fighting this shared responsibility with us 
need more help to confront this problem.
    But I also want to mention that in the OAS there are some 
critically important efforts that the OAS has undertaken on 
democracy issues where we think we have to continue to support 
them including financially. That includes election observation 
and reporting and reports that have come out in very 
challenging environments such as Nicaragua. It includes the 
Special Rapporteur for Press Freedom, an issue that I know many 
on this committee are concerned about, and an issue that has 
been under some pressure in the OAS where we think it is 
important that we continue to fund those efforts.
    Mr. Mack. Thank you for your answer. I don't know that I 
completely agree. I mean if you just look this graph, it shows 
that the freedom of the press in Latin America has been on a 
steady decline.
    [Graph shown.]
    Mr. Mack. Again this is one of the things I pointed to in 
my opening statements. I don't know that this is a show of 
success for what is happening. And I think the OAS stands in 
the way of democracy, and that we ought to be strengthening our 
relationships with our friends and allies instead of turning it 
over to the OAS. And I know you will disagree, and I am sure we 
will have plenty of time to talk.
    But I want to hit on this idea, or about Cuba for moment, 
because it was disturbing at the Summit to hear the different 
countries, so many of them, talk about wanting Cuba to be part 
of the next Summit or be included in the OAS when Cuba is not a 
democracy. And the idea that we are going to allow a 
dictatorship to be part of an organization that is to promote 
democracy, and even to go so far as to talk about redefining 
democracy almost like trying to create a special space for Cuba 
that shouldn't exist. I mean this is a country, and I think you 
would agree with me on this that all the tools, everything that 
needs to happen with Cuba is in their hands. With free and fair 
elections, releasing the political prisoners, freedom of 
speech, freedom of the press, becoming a democracy they would 
be welcomed. But I am concerned about the overall take in the 
Western Hemisphere that we are losing ground even with our 
allies on this issue. And I would just like to get your 
response to that.
    Ms. Jacobson. Thank you, Mr. Chairman. I think the 
President and the Secretary have addressed this issue very 
well. We certainly agree with you that democracy is not a 
relative concept, it is a universal concept. And it is 
enshrined in documents in this hemisphere, in the Inter-
American Democractic Charter, and in the Summit process from 
2001, when democractic governance was required of those 
participating in Summits. And so we too look forward to the day 
when Cuba can participate in the Summits, but that day has not 
come yet. So we feel very strongly about that, that that is a 
requirement to participate.
    Mr. Mack. You would also say it hasn't come yet because it 
is Cuba's responsibility, not the responsibility of the United 
States or any other country in the hemisphere to turn a blind 
eye to what they are doing in----
    Ms. Jacobson. Absolutely, absolutely. The road map has been 
set out for Cuba to take that path and enter back into the 
inter-American system.
    Mr. Mack. Thank you. I would now like to recognize 
Congressman Engel, the ranking member, for 5 minutes for 
questions.
    Mr. Engel. Thank you very much, Mr. Chairman. You and I 
agree on much of what needs to be done vis-a-vis the United 
States and in Latin America policy. One of the reasons I 
supported the free trade agreements with both Panama and 
Colombia was that I think it is important that we let our 
friends know that there is an upside into being allies with the 
United States. I think that there is a geopolitical reason for 
us to do these things and I think that is very important. And I 
do agree with the chairman that we have to show countries that 
it is good to align with us, not with the Chavez' of the world, 
because we are reliable. So we share that. I do, however, think 
that the President did a very good job, and the administration 
did a very good job in the free trade agreements. It is very 
difficult, very politically tricky, and the President did it. 
And it is done and I commend the administration for doing it, 
and I think we are going to see more things like that.
    I also agree with the chairman that the OAS is a far from 
perfect organization. But I think where we disagree is I 
believe it is the best we have. If we don't strengthen the OAS 
and if we start pulling back so that the United States does not 
have as much influence as it does on the OAS, we are going to 
find that the alternatives are far worse. For instance, I want 
to ask the Secretary how does she view the CELAC? Is it a 
competitor to the OAS? Shouldn't we be concerned? I believe we 
should. That the U.S. is not a member but many of the countries 
antagonistic to the United States in the hemisphere, including 
Cuba, are.
    So it is almost like be careful what you wish for, because 
if there are these other organizations that do not allow the 
U.S. or Canada to participate, I think we are better off 
staying with the OAS, strengthening the OAS, not pulling funds 
away from the OAS, and going with the organization where we 
have influence and where we can help to shape things the way we 
see it.
    And I do agree with both you and the chairman that, and I 
said it in my opening remarks, that Cuba needs to do a lot more 
before it can be admitted to the OAS or the Summit of the 
Americas, and I almost find it preposterous that they refuse to 
do more. They still have Alan Gross, an American citizen, and 
yet they think that they can just become members of all these 
organizations without making a change. So I am wondering if you 
could talk to me about CELAC and OAS and these other things 
that I mentioned.
    Ms. Jacobson. Thank you very much, Congressman. I think we 
agree on a lot of these issues. Multilateral diplomacy has been 
a big part of this administration's push. We think that when we 
act with other countries in the hemisphere we get better 
results, we have a stronger position. The best form for doing 
that, we believe, is the OAS. It is the longest standing body 
in the hemisphere. It has got institutions that have been 
developed to carry out some of its functions, technical 
functions, whether that is election monitoring or the Special 
Rapporteurs on various issues that I think are very important 
at giving voice to some of these democracy issues and others.
    CELAC, honestly, is very new. It is hard to say where it is 
going and what it will be like. Obviously there are lots of 
different regional organizations, some of which do not include 
us, and have existed on and off over the past number of years. 
So I think it is a little bit early for us to say whether CELAC 
really becomes a competitor to the OAS. Our goal is to support 
the OAS and to continue to view the OAS, which someday will 
have, I think, a democratic Cuba as a member and thereby 
include all of the countries of the hemisphere, as the primary 
multilateral vehicle in the hemisphere.
    Mr. Engel. Thank you. Can you talk a little bit about the 
Summit of the Americas? We all went, all of us up here, all 
four of us up here. And if you listen to the media you hear 
about the scandal with the Secret Service but you don't hear 
about the good work that was done. What is your assessment of 
the work that was done at the Summit?
    Ms. Jacobson. Thank you. I guess I would start out by 
saying that the sheer fact, and many of you spoke about this, 
the President spoke about this, the sheer fact that we were in 
Cartageda, Colombia, safely for a number of days in a 
hemispheric gathering was pretty remarkable after the decade-
plus that Colombia has been through. And I think in some ways 
Colombia's leadership of this Summit demonstrated just how far 
they have come and the kind of partnerships we really do want 
to create throughout the hemisphere. And so I think Colombia, 
as the host and leader of this Summit, was very significant.
    Similarly, I think the way they structured this, and I made 
reference to this in my statement, the way they structured this 
Summit was a very important model. By having a CEO summit where 
the private sector really, for the first time, was able to have 
a true dialogue with the leaders, and a civil society summit, 
they set up a model which really can serve us well in the 
future. These Summits can't be government leaders isolated from 
those two other constituencies in the hemisphere.
    But lastly, I would note that although there was a lot of 
commentary on the lack of a political declaration signed by all 
the leaders at the end of the Summit, it isn't the first time 
that that has occurred. And unfortunately, we didn't have 
consensus on every issue. One of these as you know was Cuba, 
there were others. But what is, I think, missing from a lot of 
the commentary is, there was huge amount of support for 16 
other paragraphs that everybody agreed on. The importance of 
focusing on energy both traditional, conventional, and 
renewable. The importance of education to make societies more 
competitive in the 21st century. The importance of empowering 
women and small businesses. So unfortunately, the focus in the 
press wasn't on those pragmatic solutions, but there was a huge 
amount of discussion on those in the Summit itself.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    Mr. Mack. Thank you, Mr. Engel. I would now like to 
recognize Mr. Rivera for 5 minutes for questions.
    Mr. Rivera. Thank you, Mr. Chairman. I would like to raise 
the specter of the recent visit between President Obama and Mr. 
Medvedev, Putin's puppet, in Russia, in which President Obaman 
expressed flexibility or a willingness to be more flexible with 
respect to U.S.-Russian relations after the upcoming election. 
And Mr. Medvedev's response that he will of course inform his 
master, Putin, of the President's willingness for flexibility. 
Because in essence what the President was signaling to our 
allies like Poland, a great ally, that we are willing to throw 
them under a bus on an issue like missile defense, and risk our 
own security as well once the nuisance of an election is behind 
President Obama. I think that was an extraordinary message to 
be sending to our allies, and a very dangerous message to be 
sending to our foes.
    I know that in Cartagena after the Summit there was a lack 
of consensus as you just cited regarding a statement inviting 
Cuba to participate in the next Summit. And I know some of our 
diplomats saw that as some sort of a victory and that thus 
maybe we should tone down expressing our concerns on this 
matter, because of course that is what diplomats do. They don't 
want to make waves. But I believe President Obama's colloquy 
with Medvedev gives me grave concerns on a host of foreign 
policy and national security issues.
    So let me just ask you specifically and directly, did 
President Obama or any member of this administration 
communicate to representatives of any government, any private 
assurances of flexibility after this election with respect to 
Cuba's admission into the Summit process?
    Ms. Jacobson. Congressman, we did not.
    Mr. Rivera. Thank you. Let me ask another question very 
directly. If President Obama is reelected and assuming you 
continue in your post, which I hope you will, and assuming Cuba 
remains the totalitarian dictatorship that exists today when 
that Summit comes up again in Panama, will the United States 
attend the next Summit in Panama if Cuba participates?
    Ms. Jacobson. I have to say, Congressman, there is so many 
hypotheticals in there.
    Mr. Rivera. There is only two. President Obama being 
reelected, and Cuba being a totalitarian, communist 
dictatorship that is on the list of terrorist sponsors by your 
State Department, that your State Department has issued. You 
have placed Cuba on the list of terrorist sponsors. If those 
conditions exist at the next Summit in Panama, will the United 
States participate if Cuba participates?
    Ms. Jacobson. Congressman, I can't say definitely what 
status Cuba will have 3 years hence--hang on 1 second.
    Mr. Rivera. Today's status.
    Ms. Jacobson. But if nothing changes then neither would our 
position.
    Mr. Rivera. So if nothing changes in Cuba with respect to 
their governing structure, and there is an effort to include 
Cuba, and indeed that effort succeeds and comes to fruition, 
the United States will not participate in the Summit of the 
Americas in Panama, is that correct?
    Ms. Jacobson. What I can't do here is make you a promise on 
behalf of the President. I can't speak for future action by the 
President. But what I can tell you is nothing will have changed 
in our view that Cuba should not be part of the Summit process 
until they are a democracy and have made changes. If those 
changes have not come, we will not believe they should be part 
of the Summit process and we will have to confront that at the 
time that the Summit is being planned. It might include lots of 
different options.
    Mr. Rivera. Well, I hope a very clear signal will be sent 
by whatever administration is in power in the White House after 
these elections. That under no circumstances will the United 
States provide credibility, legitimacy, credence, to a 
supposedly democratic process when such an anti-democratic 
regime like the Castro dictatorship would be participating. 
Thank you, Mr. Chairman.
    Mr. Mack. Thank you, Mr. Rivera. Now I would like to 
recognize Mr. Sires for 5 minutes for questions.
    Mr. Sires. Thank you, Mr. Chairman. First, let me 
congratulate the Secretary of State and the President for 
holding firm on not allowing Cuba in the Summit. I know it was 
not easy. I was very disappointed that the OAS was hiding under 
a rock in not making any comments about this issue. So that is 
disappointing.
    At the same time, I was more disappointed of what happened 
with our security forces, not only for ruining the Summit for 
the President, but really ruin it for the people of Colombia in 
what they have done over the last 10 years. They tried to put a 
new face on this hemisphere. They worked so hard. And yet the 
news out of Colombia is about what went on with the security 
forces. They all should be dismissed. There is no room for 
that. And I feel very bad for the people of Colombia, they 
worked very hard. And some of my Colombian friends have talked 
to me and said to me, for 10 years all we see on CNN and all 
these other stations is the terrorists in Colombia and what is 
going on in Colombia. And now after this Summit, what we see is 
about prostitutes in Colombia. So it is really a sad commentary 
on those people that, and I know that not all of them did it, 
but those ten or twelve people that were involved it is really 
a sad commentary.
    The other thing is, I want you to talk to me a little bit 
about this idea that maybe we are shifting money from the 
Western Hemisphere and put it on the Middle East and Asia. I am 
very concerned. I really think that what I took away from the 
Summit in talking to some of those Presidents is that they also 
are concerned, and they are our closest neighbors. And 
especially what is going on with China trying to get a foothold 
in all these countries. So can you just speak a little bit to 
that?
    Ms. Jacobson. Absolutely. There is two things I want to 
mention. One is just, before I turn to the assistance, just how 
much engagement we have with countries where there is no 
assistance component. You just saw the visit of President Dilma 
Rousseff to Washington from Brazil, the Secretary went on to 
Brazil after the Summit. We have just multiple dialogues with 
Brazil. Brazil is shifting in their relationship with us vis-a-
vis assistance, to become a partner in donating assistance to 
Africa with us, working together on food security. So some of 
the closest relationships we have are no longer defined by 
assistance because the countries have graduated, have outgrown 
assistance. And that is a very good thing. But it doesn't mean 
there is less of a partnership with those countries.
    In other cases we have countries where we have had very 
intense, very large aid relationships like with Colombia, over 
about 12 years, and that aid is on a downslope, because of 
Colombia's success and because of their economic ability to 
assume greater financial responsibility. Again it does not 
signify a lessening of our commitment to Colombia. It signifies 
the gradual and managed transition of an aid relationship to 
one where Colombia can take on more of that responsibility.
    In Mexico the shift is from some large pieces of equipment 
that are expensive, frankly, that we put in the beginning of 
the Merida Initiative despite how long it took to get things 
there, to one that is much more intense on training and 
building capacity which, frankly, is cheaper than helicopters. 
So I think it is important to recognize that while some of 
those numbers are going down slightly, the intensity of the 
cooperation is just as great and in some cases it is 
increasing.
    I think that is also true in Central America and in the 
Caribbean where the capacity is not as great, where we really 
do have to stay engaged longer. We have tried to maintain those 
levels of funding and in some cases increase them because we 
know there isn't as much capacity. So while I know that there 
is a lot of attention on the Middle East, on Asia, on other 
parts of the world, we think we have done a pretty good job at 
defending levels of assistance that will enable us to maintain 
those intense relationships on issues of critical importance to 
the U.S.
    Mr. Sires. I am glad to hear that, because one of the 
concerns that some of the Presidents especially in Central 
America have is that they are going to become the root, or they 
already have become the root where the drugs are going to be 
transported. And they are fearful that they do not have the 
means to stop it. So I do hope that we keep concentrating in 
those areas. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Mack. Thank you. And if the Assistant Secretary doesn't 
mind, we would like to have another round of questions, and 
they just get easier.
    I want to go back. There is clearly a difference of opinion 
with the OAS, and I respect that other people have a different 
opinion than mine. But what concerns me about the OAS is, we 
saw what happened in Honduras, and I believe that the OAS 
instead of standing up for the people of Honduras and their 
democracy and constitution, instead sided with Chavez and 
Zelaya. And in fact, I think that our own administration had 
the wrong position and the State Department had the wrong 
position.
    So I don't know why we continue to, the idea of 
multilateral, bilateral, if you are part of an organization 
that ultimately brings down the overall strength of democracy 
in an attempt to try to be friends with everybody, that is not 
getting us anywhere. And you keep pointing to the work it does 
in monitoring elections. There are some who think they do good 
work monitoring elections, but there are some, including 
myself, that don't.
    We will have a longer discussion about this and maybe we 
will invite you back and have another hearing on the OAS. 
Because I do believe that they stand in the way of democracy 
building and protecting democracies in Latin America instead of 
supporting democracies. And there shouldn't be a question. 
People shouldn't have to guess where the OAS or the United 
States or any other democracy would stand on these issues. And 
like Congressman Sires said, sometimes when they are quiet on 
issues as it relates to Cuba, it causes a lot of problems here 
in the United States.
    But I wanted to turn quickly to Argentina. I believe, and I 
have for awhile now, that Argentina is up to no good and is 
turning away from freedom, democracy. We see it with the taking 
of business assets, when they play shenanigans with us, 
accusing the United States of doing things, and then we know 
that there are court documents and court proceedings that they 
continue to ignore. So I just would like to get from your 
perspective, from the State Department's perspective, where you 
see Argentina in its relationships to the United States. Do you 
see it one that is challenged or one that is on solid footing?
    Ms. Jacobson. Thank you, Mr. Chairman, I appreciate that 
question. And I guess I would say it is a difficult 
relationship, and it is one in which we are working very hard 
to try and focus on the things we can move ahead on, focus on 
the positive.
    I was in Argentina in February. I studied there as a 
student. It is a place I have a great fondess for. And we are 
trying to move ahead in areas that we can and that are 
positive. But frankly, there are areas of the relationship that 
are very challenging and which are not moving ahead, and some 
of those are Argentina's relationship to the international 
financial community.
    You made reference, I think, to some of the outstanding 
claims, the arbitral awards by ICSID, as the acronym is known, 
which Argentina has not paid. That was the reason that we 
announced at the end of March, recommendation to suspend 
Argentina's GSP privileges, certain trade privileges. We think 
that Argentina needs to get itself back into a positive 
relationship with the international financial community both 
for their own economic future and for the system and those 
creditors in the United States and elsewhere. So that continues 
to be a very challenging part of the relationship.
    The security relationship is also not back to normal yet. 
We would like it to get there, but since the incident with the 
DoD plane over a year ago, we have not been able to work as 
much on issues like narcotics trafficking that we would like 
to. So we are still committed to working with Argentina on lots 
of issues, counterterrorism, educational issues, et cetera, but 
there are challenges in that relationship.
    Mr. Mack. Thank you very much, my time has expired. And 
Congressman Sires, do you have another question? You are 
recognized for 5 minutes.
    Mr. Sires. Can you talk a little bit about the progress 
that we have made in Haiti with the money that we have given 
them, in terms of infrastructure and basic services? Because I 
know a lot of people are concerned that we are putting a lot of 
money in Haiti and maybe it is not getting to the people. So 
can you just talk a little bit about that?
    Ms. Jacobson. Sure, thank you. There is no doubt, I think, 
in anyone's mind that we would all like to see the assistance 
that has been appropriated for Haiti and that is being 
delivered to Haiti, implemented faster and affect people on the 
ground faster. I think the last year has seen an acceleration 
of the implementation of those funds. Half of the rubble from 
the earthquake has now been cleared. That took a very long 
time, but that is critically important. You have the number of 
internally displaced persons going down from about 1.5 million 
to below 0.5 million. People moving into housing. Obviously 
great efforts being made against cholera to try and control the 
spread of that in sanitation and health services.
    But there is still a huge amount to be done, and there is 
no doubt that we have to continue to, frankly, keep our foot to 
the pedal here because there is a huge amount to be done. And 
frankly, some of that needs to be done with a Government of 
Haiti that has a Prime Minister in place. And so as you know 
the Prime Minister, previous Prime Minister, has resigned. He 
is in caretaker capacity. A new Prime Minister has been 
nominated, passed by their Senate. And we are hopeful that that 
person will be passed by the lower House and that then we will 
able to accelerate the efforts still further. But there is a 
great deal more to be done.
    Mr. Sires. I know that the private sector has helped 
immensely in Haiti. How is the coordination between the private 
sector and us in terms of whatever is needed to work together 
on?
    Ms. Jacobson. I think that is obviously a critical part of 
the reconstruction effort. There are a number of major 
projects, whether it is port projects, whether it is an 
industrial park that is scheduled to open fairly soon, the 
private sector role in all of this and its coordination with 
the international community and the donors has been critical 
throughout. And that communication will continue to be very 
strong.
    Mr. Sires. Thank you, Chairman.
    Mr. Mack. Thank you, Mr. Sires. Mr. Rivera, recognized for 
5 minutes.
    Mr. Rivera. Thank you, Mr. Chairman. Madam Secretary, it 
has been the policy of this administration since it was 
inaugurated vis-a-vis U.S-Cuba relations, to loosen travel and 
trade regulations and sanctions on the Castro dictatorship. The 
result of that policy, which I often refer to as unilateral 
concessions to the dictatorship, have been well documented.
    A wave of oppression across the island. Cuba continues to 
harbor fugitives from U.S. justice including cop killers and 
drug traffickers. Cuba continues to be on the State Department 
list of sponsors of terrorism, even going to the extent of 
taking and holding a United States citizen, Alan Gross, hostage 
in Cuba with an expressed willingness, as Bill Richardson's 
trip to Havana demonstrates, an expressed willingness to try to 
trade that hostage to the United States. Is there anything else 
the Castro dictatorship could do that would actually trigger 
this administration to tighten sanctions?
    Ms. Jacobson. Well, Congressman, let me start off by saying 
that the People to People programs, the regulatory changes to 
allow purposeful travel to Cuba are not designed as anything 
that benefits the regime. They are designed to benefit the 
Cuban people. They are designed to allow more contact outside 
of government for Cuban citizens and American citizens in 
particular areas. And so we don't see those as positive for the 
Government of Cuba but for the people of Cuba.
    We have kept all of the embargo provisions in place. As you 
know those are, by law those are not ones that could change in 
regulation, and there is no plan to change those at this point. 
We have also engaged with the Cuban Government only on issues, 
frankly, that are in our national interest. That are in our 
national security interest when it is critical to our interests 
to do so. So we believe that we have kept a very firm line on 
sanctions with the Cuban Government but tried to open up space 
for average Cubans separate from their government.
    Mr. Rivera. Can you cite any progress in democratic reforms 
on the island that have resulted from that policy?
    Ms. Jacobson. Congressman, I can't give you specific 
examples yet of areas in which citizens have yet been able to 
exercise more freely, political rights. I wish I could. But I 
do believe, and I am sure that you would agree, that American 
citizens are often the best amabassadors for our country. And I 
do think that that increased contact helps bring us closer to--
--
    Mr. Rivera. Well, of course that contact did not begin with 
this administration. We have always had travel, family 
unification and other types of licensed travel to Cuba, and it 
hasn't resulted in any democratic reforms.
    But let me just go, I only have a minute left, to Venezuela 
very quickly, because my understanding is that in January of 
this year you were sent documents from the Venezuelan Ministry 
of Justice implicating Hugo Chavez in covering up a case 
involving a 2.2 ton shipment of cocaine in November 2005, and 
that according to these materials, President Chavez was 
notified in writing of ``sufficient evidence linking then 
Brigadier General Henry de Jesus Rangel Silva in a smuggling 
case'' and that rather than ordering an inquiry of this 
denunciation of Rangel Silva's involvement in narcotics 
trafficking, Chavez has actually named him his Minister of 
Defense. And I am wondering what action, if any, was taken to 
expose this apparent criminality.
    Ms. Jacobson. Congressman, all I can say on that is that 
when we receive information about potential wrongdoing, 
allegations of wrongdoing in Venezuela as in every other 
country, we make sure that we pass those documents to the 
relevant U.S. intelligence and law enforcement agencies, and 
continue to look at those very carefully for potential future 
actions.
    Mr. Rivera. Thank you very much.
    Mr. Mack. Thank you very much, Mr. Rivera. I have one more 
round of questions, and if you don't mind, well, we will make 
this the last one.
    One of the other issues that was talked to quite a bit 
during our meetings at the Summit was this notion of legalizing 
drugs. And I wanted to first give you a minute, if you would 
like to, here on the record here in the committee, state the 
official position of the administration and State Department 
and our U.S. Government.
    Ms. Jacobson. Sure. Very quickly I can tell you that that 
is not a direction the United States Government believes we 
should go, that legalization is not the answer to this problem. 
But we understand the frustration of countries with the 
violence and the difficulty in confronting trafficking, and we 
have to discuss a whole lot of options to confront it, but we 
don't believe legalization in the way to go.
    Mr. Mack. Thank you. I think it is important. Obviously 
this is an area where we agree very much, and was concerned 
that there was so much talk about it in Latin America at the 
Summit on this idea that dialogue is good. Well, dialogue is 
good, but there are certain things you don't put on the table. 
And we think that legalizing drugs is one of those issues that 
just should not be on the table. We know in the United States 
we have an epidemic on prescription drug abuse, and those are 
legal drugs but it is the number one killer over cocaine and 
heroin combined. I just wanted to give you an opportunity here 
on the record. So I think that is an area we agree.
    The last question that I have is, I want to talk about 
Mexico a little bit. The drug cartels in Mexico have certainly 
evolved over time, and there is no doubt that they are 
operating in countries other than just Mexico. We know that 
they are operating here in the United States. We know that they 
have, operating in Central and South America. And the Merida 
Initiative, although I think we all think it is good, I am not 
sure that it is a program that is situated to handle the 
evolution in Mexico. And I know it is a touchy subject. Every 
time I bring up counterinsurgency we get our friends that 
aren't happy with me.
    But I believe that if we are going to be successful in 
confronting these insurgencies in Mexico, then it is going to 
take an all-of-government approach. And I am concerned that the 
Merida Initiative lacks some of the ability to do that, and I 
would like to just get your opinion on those issues.
    Ms. Jacobson. Thank you, Mr. Chairman. I think you know 
that I have worked on Mexico for quite a long time, and I 
completely agree that a whole-of-government approach is 
absolutely what is needed. What I think is important to 
remember is that the Merida Initiative and the foreign 
assistance that the State Department administers, which we work 
with our colleagues in USAID within the State Department in our 
International Narcotics and Law Enforcement Office, but also 
with our colleagues in DEA, in FBI, in DHS, both ICE and 
others, is only part of what we work with Mexico on. There are 
also programs under DoD and for the U.S. military to work 
jointly with counterparts in Mexico on training. So we feel 
like we really have crossed the law enforcement and security 
force spectrum to include all the best ideas to respond to the 
threat and to work with counterparts.
    Mr. Mack. Thank you, I appreciate that. But I guess that I 
see it a little differently, and we are back to this kind of 
silo mentality. And what I am talking about is, how do we 
approach this where when we do an all-of-government approach 
that all of government is actually working together in a 
coordinated effort? And absolutely I know that there are many 
agencies, departments in the U.S. Government that is 
participating in Mexico, but I am concerned about the 
coordination. And that I know that there has been advances. But 
I think if we have a program that is going to look at it as 
one, if you will, that instead of having the silo mentalities 
of how we are going to deal with the insurgents in Mexico, 
because look, frankly, the people who live along the southern 
border are fearful. And so you have drugs and criminals and 
terrorist organizations that are trying to move north across 
the border, and you have guns and money that is moving south.
    So it is a shared interest to secure that border and also 
to ensure that the insurgents in Mexico don't have the ability 
to continue to operate in the United States and in Central and 
South America. So I think this whole-of-government approach 
needs to be done under one spectrum instead of the silo effect 
that we have now.
    I will just leave that with you, and thank you very much. 
Next is Mr. Sires for 5 minutes.
    Mr. Sires. Thank you, Mr. Chairman. We have a situation in 
Venezuela where the President is obviously in Cuba for 
treatment and elections are in October. One way maybe that the 
OAS can become useful is by sending monitors to the election 
process and be observers. I was just wondering if anything like 
that has been discussed or anything with the OAS, and then do 
you know what kind of plans are we making in case Chavez 
doesn't leave Cuba?
    Ms. Jacobson. Congressman, we certainly believe that 
international and domestic election observers will be very 
important in Venezuela, and we would strongly support election 
observation missions for the October elections. There is 
obviously lots of different organizations that may be able to 
do that. Within the OAS context, the Venezuelan Government 
would have to request the OAS monitor the elections. We hope 
they will do that. And we certainly are talking with partners 
and folks around the hemisphere to encourage election 
monitoring. But we think it is equally important that domestic 
organizations be able to monitor the elections within 
Venezuela.
    And in terms of the issues of President Chavez' health, we 
really don't have any more information than everybody else has, 
but we are obviously watching things very closely making sure 
we have good information, reaching out to Venezuelans of all 
stripes as we have over the last number of years, and will 
continue to do regardless of his health status.
    Mr. Sires. Thank you very much.
    Mr. Mack. Thank you, Mr. Sires. Now I will recognize Mr. 
Rivera for 5 minutes for questions.
    Mr. Rivera. Thank you very much, and pleasantly surprised 
that we get another round. I didn't know we would. So maybe I 
will ask about Cuba.
    And something very interesting happened in the Summit, and 
again just want you to kind of have a full association moment 
here. But Congressman Sires and Congressman Mack and 
Congressman Engel and I, we were in some meetings where I 
remember some of us asked Presidents of Latin American 
countries, why is it that there is this push to reintegrate 
Cuba into the Summit process so vehemently amongst some 
Presidents? And we actually had Presidents tell us in a moment 
of candor that the main reason is because many Latin American 
countries fear upheaval and civil unrest among the more leftist 
sectors of their society, labor groups, student groups, 
nongovernment organizations that are very sympathetic and have 
alignments and nexus with the Castro dictatorship. And so in 
order to prevent those types of disturbances and civil unrest, 
they kowtow to the Castro brothers. We actually heard that from 
Latin American Presidents.
    President Calderon from Mexico was here yesterday. We met 
with him. And I asked him what he could cite as the success of 
over 50 years of engagement by Latin America in Cuba, what 
democratic reforms they can cite. Because they always call our 
policy a failure, so I asked him for the successes in terms of 
democratic reforms of engagement in Cuba by Mexico and other 
Latin American countries. And his response was, well, we were 
able to extract Mexican citizens from Cuba's prisons. And 
again, he stated how Cuba had these relationships with 
terrorist organizations like the FARC, but they never had 
terrorist problems in Mexico precisely because of their 
friendly relationship with the Castro brothers.
    And so you have so much experience in Latin America, and I 
am just going to ask you that whatever candor you can give here 
within the parameters of being a diplomat and a representative 
of the U.S. Government, does any of this ring true to you?
    Ms. Jacobson. I guess the part that rings true is that all 
politicians have different constituencies to engage with, but I 
also think the President said it really well when he talked 
about moving beyond left and right. And there are universal 
standards that we in this hemisphere have signed up to, and I 
think some of those old debates about the left and the right 
domestically in countries throughout the hemisphere are just 
not as relevant as they used to be.
    Mr. Rivera. So do you believe that Latin American leaders 
fear the connections between the Castro brothers and leftist 
elements whether they be terrorist elements or civil elements 
in their societies, and therefore that is why they seem to be 
so compliant toward the Castro dictatorship?
    Ms. Jacobson. I think it is very hard for me to assert what 
they may feel or----
    Mr. Rivera. I am asking just based on your experience as a 
diplomat throughout Latin America.
    Ms. Jacobson. No, I appreciate that. I really do, I 
appreciate that and I appreciate your confidence that I can 
ascertain sort of the reasons behind this. But I certainly 
think as I said, I guess, in the start, they all have 
constituencies. So there may be some element of political 
evaluation that this is an issue on which the left cares 
deeply, and they may want to address that particular 
constituency.
    Mr. Rivera. Well, I appreciate that. I have 1 minute left 
and I would like to ask you with respect to the Millennium 
Challenge funds in Central America, particularly in El 
Salvador. We have seen what has been happening with El Salvador 
and confiscation of U.S. investments in El Salvador and so 
forth, and in other countries in Central America. Do you think 
it is time for perhaps the United States to reassess our 
relationship in terms of these programs with these countries 
that are having, I guess, offensive behavior really toward U.S. 
interest in these countries?
    Ms. Jacobson. Congressman, I think it is very important 
that we pursue issues of potential expropriation or takings of 
properties with governments whether it is El Salvador or others 
in the hemisphere, and we are going to do that pretty 
agressively. But I don't think we have come to the conclusion 
that it would necessarily be productive to end relationships 
through the MCC or other of our assistance programs which go to 
some of the poorest in those countries, and we continue to 
believe are very important programs. That doesn't mean we are 
not going to work on the issues of potential takings or 
expropriations.
    Mr. Rivera. Thank you very much. Thank you, Mr. Chairman.
    Mr. Mack. Thank you, Mr. Rivera. And for the last question, 
Congressman Engel is recognized for 5 minutes.
    Mr. Engel. Thank you, Mr. Chairman. We have all mentioned 
Cuba and I mentioned Alan Gross. I am wondering if you could 
just update us. Is there anything new about him? It is just 
really an outrage that the Castro government continues to hold 
him on trumped-up charges, and it is just a disgrace. Anything 
new with that?
    Ms. Jacobson. Mr. Engel, I really wish I could bring you 
some new news there. I truly do. This is an issue that I have 
been working very hard personally, but more importantly so have 
my boss, Under Secretary Sherman, and the Secretary and others. 
And we have used just about every means that we could to try 
and get Alan Gross home where he belongs with his family. We 
had some hope that the Cuban Government would take the 
opportunity of the Pope's visit to make this gesture and to 
release Alan Gross. His mother's 90th birthday was just about 
10 days ago while we were in Cartagena. She is very ill with 
lung cancer. There is just no reason to hold this man and not 
to allow him to be home with his family. And we will continue 
to use every mechanism that we can, but I have no progress on 
that front to report to you.
    Mr. Engel. Thank you. We have all made the point that Cuba 
has not moved at all toward democracy and why it should not 
participate in another conference if it hasn't changed. 
Democracy aside, and that is the most important issue, but 
something as small as this, the Government of Cuba has shown 
its total intransigence on every matter, not just democracy, 
not just allowing political pluralism, not just to human 
rights. This is an American citizen who does not by any stretch 
of the imagination deserve to be incarcerated. And they won't 
even budge on that.
    So it is very disheartening that people want to still give 
them a free pass and say that we should just keep a blind eye 
and just pretend, that it doesn't matter what kind of 
government any country has, we are all of the same. And I think 
that undermines the organizations and the countries that talk 
that way. It really diminishes them.
    Could you talk to me about the CIFTA treaty, the gun 
trafficking CIFTA treaty. The State Department has confirmed 
that the U.S. in compliance with CIFTA, and is this true, and 
what is the status of treaty and efforts to get it ratified in 
the Senate?
    Ms. Jacobson. Thank you, Congressman. We, as you know had 
sent the CIFTA treaty, the small arms treaty, to the Senate 
after it was signed in 1997. What has changed since then, I am 
happy to say, is that the treaty is on the State Department's 
or the administration's list of priority treaties, and that is 
as of last October when that went forward to the Senate Foreign 
Relations Committee. So we are still hoping that there will be 
movement on that treaty.
    Most importantly, I think it is important to make clear 
that there are no U.S. laws or regulations that would have to 
change for implementation of the CIFTA treaty. It recognizes 
legal rights to own guns and weapons, and we do not believe 
there is a conflict between the CIFTA treaty and the laws and 
the rights that American citizens enjoy. So we hope that it 
will move ahead. We think it is important in the hemisphere.
    Mr. Engel. Thank you. Let me ask you a question about 
Colombia. I mentioned before that I supported the FTA with 
Colombia, and I believe that Colombia is a tremendous example 
of a country that works with us, is a strong ally, and I can't 
say anything more. I am very pleased with the fact that they 
have done everything expected of them. But can you tell me if 
Colombia has fully implemented the Labor Action Plan? Because 
there has been some talk that they have not, and if that is not 
true, which sections still require implementation and is there 
a firm timetable for implementation?
    Ms. Jacobson. Congressman, I think that Ron Kirk, the U.S. 
Trade Representative said it pretty well in Cartagena when he 
talked about the Colombian Government reaching all of the 
milestones that we expected and hoped for in the Labor Action 
Plan. They are clearly making serious efforts to protect trade 
unionists, to ensure that there are prosecutions of cases of 
violence against union leaders, and that we were pleased enough 
with that progress obviously for the free trade agreement to be 
put into effect. But I will tell you that there still are 
things that need to be done, and we will continue to work with 
the Colombian Government really without an end date but 
continue to work with them to implement fully those provisions 
and to continue to improve the record on trade unions.
    Mr. Engel. I don't know if when I was out of the room if we 
talked a lot about Mexico. What is the status of Merida? Are 
the funds still flowing? We still know there is lots of help 
that the Mexicans need, and I think in terms of our 
relationships with countries, all the countries to our south, 
none is more important than our relationship with Mexico. 
Obviously we share a large border. They have been a good ally, 
and what happens down there affects us up here and vice versa.
    Ms. Jacobson. Congressman, we are very happy that the pace 
of implementation has accelerated pretty dramatically in 
Mexico. The Secretary committed that last calendar year we 
would implement $500 million in assistance, and we hit that 
goal, made it just over that so that we are over $900 million 
implemented already in the Merida Initiative. But we are 
continuing. That number continues to increase, and to continue 
to work with the Mexicans. And now the shift is also to work 
with Mexican states. Because Mexican police are over 400,000 in 
state and local jurisdictions and only 40,000 at the Federal 
level. So there is clearly a lot more we still have to do, but 
there is huge progress that has been made.
    Mr. Engel. Okay, I see my time is up. So I want to thank 
you again, and thank you very much, Mr. Chairman.
    Mr. Mack. Thank you, Mr. Engel. And thank you very much for 
your time, for your responsiveness to our questions. We 
appreciate it so much and we look forward to the next time we 
can have you back in front of the committee and continue the 
dialogue, so thank you very much.
    The committee hearing is now adjourned.
    [Whereupon, at 3:28 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Prepared statement and material submitted for the record by the 
 Honorable Connie Mack, a Representative in Congress from the State of 
     Florida, and chairman, Subcommittee on the Western Hemisphere

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                                 <all>

</pre></body></html>
